No.

IN THE

Supreme Court of The United States
OCTOBER TERM, 2019

ROBERT JODOIN,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.

PROOF OF SERVICE

I, Noel G. Lawrence, do declare that on this date, 5" August, 2020, pursuant to Supreme
Court Rules 29.3 and 29.4, I have served the attached MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on
each Party to the above proceeding, or that Party’s Counsel, and on every other Person
required to be served by depositing an envelope containing the above Documents in the
united States Mail properly addressed to each of them and with First-Class Postage
prepaid. The Names and Addresses of those served are as follows:

Hon. Noel Francisco,

Solicitor General of The United States
Department of Justice-Room 5614
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Pull Lrvuep
AFFIANT

 

37

|
|

a
